U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Brandon Lee Mojica v. United States of America,
S.CtNo. 19-35

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 2, 2019. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government's response is now due on September 23, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 23, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0035
MOJICA, BRANDON LEE
USA

ZACHARY LEE NEWLAND
BRANDON SAMPLE PLC
P0 BOX 250
RUTLAND, VT 05702
802-444-4357
ZACH@BRANDONSAMPLE.COM

